High-Speed Network Inspection: Summary for OIG Website




The National Science Foundation (NSF) operates and maintains a High-Speed Network (HSN) at its
headquarters in Arlington, Virginia. NSF describes the HSN as a limited purpose, non-production
research network that is independent and segregated from the NSF internal production network. The
HSN provides access to a collaborative environment for researchers and educators focused on the
development of innovative technology solutions.



The purpose of the OIG’s inspection was to assess whether NSF’s current controls over the HSN were
sufficient. We made recommendations to enhance the controls which NSF has agreed to consider.
